                            1
  OFFICE OF THE INSPECTOR GENERAL




              SEMIANNUAL
                            9
                           REPORT




                            9
APRIL 1, 1999 ~ SEPTEMBER 30, 1999




                            9
The Office of the Inspector General
(OIG) is an independent organization
charged with reporting to the
Tennessee Valley Authority (TVA) Board
of Directors and Congress on the
overall efficiency, effectiveness, and
economy of TVA programs and
operations. The OIG meets this
responsibility by conducting audits,
investigations, and other reviews.


The OIG focuses on the prevention,
identification, and elimination of
(1) waste, fraud, and abuse; (2) viola-
tions of laws, rules, or regulations; and
(3) inefficiencies in TVA programs and
operations.


If you want to report any matter
involving TVA programs, operations, or
employees, you should call the OIG
Hotline or write the Inspector General's
office.




               TVA
               TVA
                                            Call toll free:
               INSPECTOR
                                            1-800-323-3835
               GENERAL                      423-632-3550 (Knoxville)


                           n e
                      t li                  Tennessee Valley Authority
                                            400 West Summit Hill Drive ET 4C


                  H o                       Knoxville, Tennessee 37902-1499
Tennessee Valley Authority
                 Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1499




Robert L. Thompson
Interim Inspector General



October 29, 1999




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS

This semiannual report describes the accomplishments of our office for the six-month period ending
September 30, 1999.

During this reporting period, I was appointed as the Interim Inspector General for an indefinite period.
Inspector General George Prosser is on administrative leave pending completion of an investigation by the
Federal Bureau of Investigation into allegations sent by TVA Chairman Craven Crowell to the Integrity
Committee, Executive Council on Integrity and Efficiency.

As Interim Inspector General, I have continued the independent efforts by the Office of the Inspector
General to support and improve the efficiency of TVA, including the identification and elimination of fraud,
waste, and abuse affecting the agency. I am impressed by the results achieved by OIG employees who
continue to do their part in serving as a catalyst for excellence at TVA.

During this reporting period, OIG audits, investigations, and special projects identified numerous opportu-
nities for TVA to save or recover money and to make process improvements. TVA management continues
to respond favorably to OIG recommendations.

Sincerely,



Robert L. Thompson




                                                            SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999
                                                                                              C O N T E N T S               ■




1    Executive Summary                                   8   Audits
                                                                                                            OFFICE OF THE
                                                                                                            INSPECTOR
2    TVA Profile                                         11 Investigations                                  GENERAL

                                                                                                            SEMIANNUAL
3    Office of the Inspector General                     16 Special Projects                                REPORT

                                                                                                            APRIL 1 THROUGH
5    Special Feature                                     18 Legislation and Regulations
                                                                                                            SEPTEMBER 30, 1999




Appendices
    1. OIG Audit Reports Issued During the Six-Month Period Ending September 30, 1999
    2. OIG's Report on Management Decisions for the Six-Month Period Ending September 30, 1999
    3. Investigative Referrals and Prosecutive Results
    4. Audit Reports With Corrective Actions Pending
    5. OIG Reporting Requirements




                                                                       SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999
■    E X E C U T I V E             S U M M A R Y




                      We continued our efforts to support TVA        environmental crimes, contractors’
                      by providing quality audits, investigations,   fraudulent claims for temporary living
                      and special projects. During this              expenses, health care overpayments, and
This report           reporting period, our reviews identified       employee misconduct. Our investiga-
summarizes the        over $14 million in potential savings,         tions also led to seven subjects being
                      recoveries, or funds which could be put        indicted and five convicted.
activities and
                      to better use. Management took
accomplishments       numerous actions in response to our            During this reporting period, Inspector

                      recommendations.                               General George Prosser sent a Seven-
of TVA's OIG
                                                                     Day Report to the TVA Board of Directors
during the six-       We completed 36 audits in which we             and the Congress. In that report, dated

month period          identified over $1.6 million in questioned     May 26, 1999, Mr. Prosser reported “an
                      costs and more than $9.8 million in funds      attempt to impede the independence” of
ending
                      that could be used more effectively.           the OIG. By letter dated June 1, 1999,
September 30,         Representative audits include                  Chairman Craven Crowell referred various
                      (1) preaward and postaward contract            allegations against Mr. Prosser to the
1999.
                      audits, (2) audits of TVA performance          Integrity Committee of the Executive
                      measures under the Government                  Council on Integrity and Efficiency. The
                      Performance and Results Act, (3) reviews       Integrity Committee referred these
                      of security and access controls in TVA         allegations to the Federal Bureau of
                      systems, and (4) audits of TVA’s year          Investigation (FBI). Subsequently,
                      2000 readiness. Our auditors also              Chairman Crowell placed Mr. Prosser on
                      conducted 11 special projects, including       administrative leave pending completion
                      (1) a review of TVA’s Economy Surplus          of the FBI investigation. Robert L.
                      Power Program, (2) drafting a risk policy      Thompson, Director, TVA Police, was
                      for TVA, and (3) conducting a TVA-wide         appointed as the Interim Inspector
                      intellectual capital assessment.               General. In addition, the General
                                                                     Accounting Office (GAO) was asked to
                      We closed 81 investigations which led to
                                                                     investigate Mr. Prosser’s and Chairman
                      over $3.19 million in savings and
                                                                     Crowell’s allegations. GAO issued its
                      recoveries, administrative or disciplinary
                                                                     report on September 15, 1999. Because
                      action taken against 17 individuals, and
                                                                     Congress already is aware of these
                      other corrective action in 3 cases. Our
                                                                     matters, they will not be further dis-
                      investigations included product substitu-
                                                                     cussed in this report.
                      tion, workers’ compensation fraud,




1    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                T V A           P R O F I L E           ■




                              Bowling Green
                                             •

                                                                              •
                                                                           Bristol


                                    •                          Knoxville
                                                                                     29 hydroelectric dams, and a pumped
                                 Nashville
                                                               •
              Jackson
                •
                                                                                     storage plant. These plants provide over
  Memphis
 •                                               Chattanooga
                                                 •
                          •
                        Muscle
                                   Huntsville
                                        •                                            28,000 megawatts of net dependable
                        Shoals

            Columbus
                    •                                                                generating capacity. TVA’s electric power
                                                                                     business is entirely self-funding.

                                                                                                                                      TVA's 13,322
                                                                                     TVA’s major functions include (1) multiple
                                                                                     purpose management of the Tennessee              employees serve
TVA is a federal corporation, the nation’s
                                                                                     River system; (2) generation, sale, and          an 80,000-square-
largest electric power producer, a
                                                                                     transmission of electricity to wholesale
regional economic development agency,                                                                                                 mile region
                                                                                     and large industrial customers; (3) invest-
and a national center for environmental
                                                                                     ment in economic development activities          spanning seven
research. TVA’s statutory responsibilities
                                                                                     that generate a higher standard of living
include management of the nation’s fifth                                                                                              states.
                                                                                     for citizens of the Tennessee Valley;
largest river system.
                                                                                     (4) stewardship of TVA assets and
                                                                                     provision of recreation opportunities on
TVA’s mission, as stated in its Annual
                                                                                     federal lands entrusted to TVA; and
Performance Plan, is “to develop and
                                                                                     (5) research and technology development
operate the Tennessee River system to
                                                                                     that addresses environmental problems
minimize flood damage and improve
                                                                                     related to TVA’s statutory responsibilities
navigation, and to provide energy and
                                                                                     for river and land management and power
related products and services safely,
                                                                                     generation.
reliably, and at the lowest feasible cost to
residents and businesses in the multi-
                                                                                     TVA is governed by a three-member
state Tennessee Valley Region.”
                                                                                     Board of Directors appointed by the
                                                                                     President and confirmed by the Senate.
TVA’s programs fall into two separate but
                                                                                     At the end of this reporting period,
interrelated activities—the power
                                                                                     Chairman Crowell was the only sitting
program and the resource management
                                                                                     Board member.
programs. TVA’s power system consists
of 11 coal-fired plants, 3 nuclear plants,




                                                                                           SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999               2
■   O F F I C E      O F      T H E       I N S P E C T O R     G E N E R A L




                     Organization                               Office Authority
                     The OIG’s Audit Operations unit consists   The TVA Board of Directors administra-
                     of three departments. One is devoted to    tively established the OIG during
                     contract-related audits, both preaward     October 1985. When the Inspector
                     and postaward reviews; the two other       General Act Amendments of 1988 were
                     departments focus, respectively, on        enacted, TVA's OIG became one of the
                     (1) performance and special projects and   statutory offices whose Inspector
                     (2) financial and ADP-related issues.      General is appointed by the agency head.
                                                                TVA's Inspector General is independent
                     The OIG’s Investigative Operations unit    and subject only to the general supervi-
                     consists of two investigative depart-      sion of the Board of Directors.
                     ments—Financial Investigations and
                     Internal Investigations. Both depart-
                     ments work a variety of cases, including
                     employee integrity and environmental
                     issues. Financial Investigations focuses
                     on contract and workers’ compensation
                     cases, while Internal Investigations
                     focuses on nuclear issues and benefits
                     and entitlement programs. In addition,
                     an Investigative Services and Hotline
                     group reports to the Assistant Inspector
                     General for Investigations.




3   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                               O F F I C E   O F     T H E    I N S P E C T O R   G E N E R A L




Staffing and Budget
The OIG's offices are in the TVA                         The OIG's fiscal year 1999 budget was
headquarters in Knoxville, Tennessee.                    about $7.3 million, and during this
The OIG also has investigative satellite                 reporting period, the OIG had
offices in Chattanooga, Tennessee, and                   78 employees.
Huntsville, Alabama.



                         OFFICE OF THE INSPECTOR GENERAL

                                       INTERIM INSPECTOR
                                               GENERAL

                                                  ■

                                          Robert L. Thompson

                                                                                 Manager
     Legal Counsel                                                           (Human Resources)

           ■                                                                            ■
     Richard P. Levi                                                               Kay T. Myers




                     Assistant                                         Assistant
                 Inspector General                                Inspector General
                      (Audits)                                      (Investigations)
                         ■                                                 ■
                   Ben R. Wagner                                   G. Donald Hickman


                   ■ Contract                                        ■ Financial
                     Audits                                            Investigations
                     Paul E. Ivie                                      W. Chris McRae
                     Manager                                           Acting Manager
                   ■ Financial and                                   ■ Internal
                     ADP Audits                                        Investigations
                     Deborah Meyers Thornton                           Ron W. Taylor
                     Manager                                           Manager
                   ■ Operational Audits
                     and Special
                     Projects
                     Lewis M. Ogles
                     Manager




                                                               SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999                4
■   S P E C I A L                      F E A T U R E




                               Joint Projects Produce                                    TVA entered a two-year contract with an
                               Results                                                   information technology (IT) company.
                                                                                         TVA paid the company approximately
                               During this reporting period, we con-                     $8.2 million during the contract period.
                               ducted (1) joint audits/investigations
                               within the OIG and (2) joint investigations               Under the contract, TVA reimbursed the
                               with other law enforcement agencies.                      company for labor at a set hourly rate for
                               These joint efforts led to significant                    each employee, and TVA agreed to pay
                               results. By pairing auditors and investi-                 per diem for each day an employee spent
                               gators, we combined the skills and                        at a TVA site. An OIG audit of the TVA
                               talents of both to uncover and pursue                     contract found indications of billing
                               fraudulent activities. In addition, our joint             irregularities, including possible overbilling
                               efforts with other law enforcement                        of labor hours and per diem expenses.
                               agencies also combined resources and                      As a result of the audit, the OIG opened
                               expertise to produce results. Some of                     an investigation to determine whether
                               our joint projects are described more fully               company personnel fraudulently over-
                               below.                                                    billed labor hours or charged TVA per
                                                                                         diem for days when the employees were
                               CONVICTION AND GLOBAL                                     not at a TVA site. The investigation was
                               SETTLEMENT WITH INFORMATION
                                                                                         conducted by OIG special agents and
                               TECHNOLOGY CONTRACTOR
                                                                                         OIG auditors.
                               The work of an audit and investigative
                               team led to a felony conviction and the                   The investigation focused on the claims
                               recovery of $1.6 million. During 1994,                    of the two company officers and an
                                                                                         executive secretary. We found evidence
                                                                                         showing the company submitted false
                                                                                         claims for labor and per diem expenses
                                                                                         totaling approximately $500,000.

                                                                                         We referred this case to the United
                                                                                         States Attorney’s Office for the Western
                                                                                         District of Tennessee. The former Chief
                                                                                         Operating Officer of the company
                                                                                         subsequently pled guilty to one felony


        The United States Attorney, Western District of Tennessee, praised Ron Hudson
         and Deborah Kearnaghan (pictured above) for their “exemplary efforts” in this
              investigation and credited the successful outcome to their efforts.


5   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                        S P E C I A L   F E A T U R E




count of submitting false claims to the        ■   In some instances, the chiropractor
United States; and, on May 5, 1999, a              directed staff members to bill the TVA
federal judge sentenced him to 2 years’            plan for physical therapy or a
probation, 200 hours of community                  physician’s office visit when the
service, a $10,000 fine, and restitution to
TVA in the amount of $9,322.

Also on that date, TVA, the Department
of Justice, and the IT company entered a
global settlement associated with the
contract. Under this settlement, the IT
company denied any liability but agreed
to pay $1.6 million in return for a release
of any claims related to the contract.

CHIROPRACTOR PLEADS GUILTY TO
HEALTH CARE FRAUD                                  On September 30, 1999, the Special Agent in Charge
                                                     of the Knoxville Division of the FBI presented OIG
                                                                 Special Agent James F. Farr
As a result of a joint OIG-FBI investiga-             with a citation for outstanding work in this case.
                                                   The citation was signed by FBI Director Louis J. Freeh.
tion, a Chattanooga-area chiropractor
pled guilty in federal court to one count of
                                                   services were not provided by a
health care fraud.
                                                   licensed physical therapist or physi-

Investigators found the chiropractor               cian but actually were provided by the

devised a scheme to fraudulently                   chiropractor.

circumvent the reimbursement limits on         ■   On occasion, the chiropractor created,

chiropractic treatments for TVA employ-            or instructed others to create, fraudu-

ees as follows.                                    lent documents which appeared to be
                                                   medical records of a physician. The
■   Treatment decisions were based on              paperwork bore the physician’s
    the nature of patients’ insurance              stamped signature, but he had not
    coverage—patients with no chiroprac-           authorized the documents.
    tic coverage were referred to an on-
    site physician or physical therapist       A federal judge sentenced the individual

    employed by the chiropractor.              to eight months in federal prison,
                                               followed by two years’ supervised




                                                       SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999                              6
S P E C I A L   F E A T U R E




                         release, and ordered him to pay $8,985 in    The indictment charged the company
                         restitution to TVA and a $5,000 court        and its owner (1) fraudulently supplied
                         fine.                                        coal blended with petroleum coke
                                                                      (petcoke) to TVA and (2) used the United
                         TASK FORCE PARTICIPATION
                                                                      States Postal Service facilities in their
                         During this reporting period, we contin-     scheme to defraud the government.
                         ued our participation in the Environmental
                         Crimes Joint Task Force and the East         Petcoke is a by-product of the petroleum

                         Tennessee Health Care Fraud Task             refining process; and, although petcoke
                         Force. These task forces are comprised       resembles coal, the two products are not
                         of members from numerous state and           interchangeable. Petcoke has a higher

                         federal agencies.                            sulfur content than coal and specifically
                                                                      was prohibited in the corporation’s
                         Our participation in these task forces       contracts with TVA.
                         emphasizes TVA’s interests in supporting
                         a thriving river system and deters fraud     Our investigation and audit revealed that
                         against the TVA health care plan.            TVA purchased more than 145,000 tons
                                                                      of coal tainted with petcoke, at a value
                         PRODUCT SUBSTITUTION—                        exceeding $1.5 million, which the
                         INDICTMENT
                                                                      corporation purported to be coal meeting
                         As a result of our audit and investigative   contract specifications.
                         efforts, a federal grand jury indicted a
                         Tennessee coal corporation and its           The judicial proceedings are continuing,
                         owner on one count of major fraud            and we will report the results when they
                         against the United States and one count      occur.

                         of mail fraud.




7   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                               A U D I T S   ■




Audits are initiated from (1) the OIG        ■   Adjusting proposed indirect cost
annual workplan, (2) issues identified by        rates, overhead rates, and certain
the OIG subsequent to the annual                 wage rates to their actual costs.
workplan, (3) issues identified by           ■   Adjusting proposed markup rates for
cooperative efforts with TVA manage-             payroll taxes, fringe benefits, and
ment, or (4) concerns raised by TVA              overhead costs to actual costs.
management or others. During this            ■   Obtaining discounted hourly rates and
reporting period, we issued 36 audit             other discounts provided to other
reports which identified over $1.6 million       customers.
in questioned costs and more than
$9.8 million in funds which could be put     During this reporting period, TVA

to better use (see Appendix 1).              management successfully negotiated
                                             total savings of $1.5 million as a result of
Summary of                                   audits issued during this and previous
Representative Audits                        reporting periods. TVA management is
                                             continuing negotiation of other contracts
Our audits included performance reviews      we audited during this reporting period.
of TVA programs, processes, and
systems, as well as preaward and             CONTRACT COMPLIANCE AUDITS

postaward audits of TVA contractors.         We completed 14 contract compliance
                                             audits and questioned $1.68 million in
RECOMMENDATIONS FOR
                                             overbillings and excessive costs to TVA.
POTENTIAL COST SAVINGS IN
CONTRACT NEGOTIATIONS                        Our audit findings included questioned
                                             costs related to:
We conducted seven preaward audits to
assist TVA management in negotiation of      ■   Material costs, fringe benefits, travel
procurement actions. These audits                expenses, personnel labor cost while
identified opportunities for TVA manage-         traveling, and billing errors.
ment to negotiate savings totaling about     ■   A cost reimbursable project being
$8.8 million. Our preaward findings              billed as a fixed price project, ineligible
included suggestions for:                        travel expenses, and other miscella-
                                                 neous unsupported and/or unallow-
■   Negotiating cost reimbursable
                                                 able costs.
    contract terms and reducing or
    eliminating certain indirect cost
    markups.



                                                    SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999           8
A U D I T S




                     ■   A duplicate subcontractor billing and      with federal guidelines. In an effort to
                         an overstated subcontractor claim for      correct deficiencies identified by our audit,
                         overhead.                                  TVA management has implemented a
                     ■   Rebates to TVA prompted by our             new Dam Safety organizational structure
                         review.                                    and established three teams to map and
                                                                    correct key program components.
                     Management generally agreed with our
                     findings and has taken or plans to take        REVIEWS OF SECURITY AND
                     action to recover questioned costs where       ACCESS CONTROLS IN TVA
                                                                    SYSTEMS
                     appropriate.
                                                                    We audited security and access controls
                     GOVERNMENT PERFORMANCE AND                     for TVA Windows NT servers, sensitive
                     RESULTS ACT OF 1993
                                                                    information on TVA’s Intranet and
                     We performed six audits pertaining to          Internet sites, and non-TVA personnel in
                     indicators provided by TVA to Congress         TVA’s electronic mail system—Microsoft
                     as part of its strategic plan to comply with   Exchange. Our objective in these audits
                     the Government Performance and                 was to ensure that adequate security and
                     Results Act. Our objective in each audit       access controls were in place to protect
                     was to assess the adequacy and                 TVA systems and information from
                     reliability of the information used to         unauthorized access.
                     calculate the indicator. We determined in
                     five of these audits the information used      We identified opportunities for improve-
                     to calculate the indicators was adequate       ment in security (1) for all of the Windows
                     and reliable.                                  NT servers reviewed and (2) in the access
                                                                    to sensitive information through TVA’s
                     The review of the remaining indicator,         Intranet by non-TVA employees. Also,
                     TVA’s Dam Safety Performance Indicator,        during the Microsoft Exchange audit, we
                     determined that TVA could improve the          identified opportunities for improvement
                     reliability of its data sources and informa-   in the areas of (1) compliance with TVA’s
                     tion systems and thus its compliance           security manual, (2) guidance given to




9   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                               AUDITS




owners of information available through     SUPPLEMENTAL EXECUTIVE
                                            RETIREMENT PLAN (SERP)
Microsoft Exchange, and (3) implementa-
tion of TVA procedures. TVA manage-         In August 1996, TVA established SERP
ment is currently considering our           for selected TVA executives to promote
recommendations.                            the recruitment and retention of execu-
                                            tive talent. As of September 30, 1998,
YEAR 2000 READINESS
                                            TVA had placed $5.1 million in a trust for
The OIG participated on a team that         investment and subsequent payment of
selected a consultant to perform an         annuity benefits. To assist in making
external assessment of TVA’s year 2000      financial decisions related to such
program. Based on the results of the        matters as SERP, TVA contracted with a
consultant’s assessment, we decided to      private firm for actuarial services.
perform independent reviews to determine
if (1) mission-critical items reported as   We found (1) the year-end actuarial

closed were supported by appropriate        calculations included multiple errors, but
closure documentation and (2) continuity    the errors were not viewed as material by
plans support operational readiness and     management; (2) SERP activity was not

safety.                                     recorded in accordance with the
                                            Financial Accounting Standard (FAS) 87,
We subsequently performed two audits of     which governs employers’ accounting
mission-critical items reported as closed   for pensions; and (3) some SERP
and found these were supported by           participants’ statements showed
appropriate closure documentation. As of    inaccurate projected benefits. In
September 30, 1999, three OIG audits of     responding to a draft of the report, TVA
TVA’s year 2000 continuity plans were in    management said (1) TVA’s accounting
progress.                                   practice would be changed to comply
                                            with FAS 87 and (2) plan participants
                                            would be made more aware of the
                                            potential effect of offsets on SERP
                                            benefits.




                                                  SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999   10
■    I N V E S T I G A T I O N S




                      During the last six months, we substanti-     ■   A former TVA ironworker, while
                      ated allegations in 20 of the 81 investiga-       receiving permanent total disability
                      tions we closed—over 24 percent. Our              benefits, owned and operated a full-
                      investigations resulted in over                   service gasoline station. Based on our
                      $3.19 million in savings and recoveries,          findings, the former TVA employee
                      seven subjects indicted, and five con-            entered into a settlement agreement
                      victed. In addition to investigations             with the Department of Justice. (The
                      discussed previously in the special               agreement does not constitute an
                      feature, other representative investiga-          admission of guilt by the individual.)
                      tions are highlighted below.                      Under the terms of the settlement, the
                                                                        former employee paid the United
                      Summary of                                        States $30,289.
                      Representative                                ■   A former TVA boilermaker, while
                      Investigations                                    receiving total disability benefits, was
                                                                        engaged in property-management
                      FALSE CLAIMS—OFFICE OF
                                                                        activities. Additionally, we found that
                      WORKERS’ COMPENSATION
                      PROGRAMS (OWCP)                                   over a period of years, the former
                                                                        employee avoided diagnostic proce-
                      To receive benefits through the Federal
                                                                        dures which were recommended by
                      Employees’ Compensation Act (FECA),
                                                                        several physicians to determine the
                      recipients must periodically submit to the
                                                                        extent of his work-related injury. A
                      OWCP forms that require the recipient to
                                                                        recently conducted examination
                      report all employment, including self-
                                                                        determined the former boilermaker
                      employment. OWCP uses the forms to
                                                                        had suffered no continuing disability
                      determine a recipient’s continuing
                                                                        from his injury at TVA. Subsequently,
                      eligibility for FECA benefits. Failure to
                                                                        OWCP terminated his benefits,
                      disclose employment information to
                                                                        creating a long-term savings to TVA of
                      OWCP violates state and federal laws.
                                                                        $839,056. (Federal prosecution was

                      During this reporting period, our FECA            declined in favor of administrative

                      fraud investigations led to recoveries and        action.)

                      long-term savings of over $1.53 million.
                      Highlights of investigative results follow.




11   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                            I N V E S T I G A T I O N S




■   A former TVA laborer, while receiving       ■   A former TVA pipefitter, while receiving
    permanent total disability benefits, was        disability benefits, was actually
    actively involved in harvesting and             employed by three different busi-
    selling mussels. As a result of our             nesses performing welding, fabricat-
    inquiry (1) the former employee pled            ing, mechanic work, and general labor
    guilty in federal court to one count of         (operating mowers, farm equipment,
    making false statements to obtain               and other machinery). The individual
    FECA benefits and to one count of               was indicted on two counts of making
    mail fraud; and (2) effective the date of       false statements to obtain FECA
    the individual’s guilty plea, OWCP              benefits and two counts of mail fraud
    terminated his benefits, creating a             related to receipt of those benefits.
    long-term savings to TVA of
                                                EMPLOYEE MISCONDUCT
    $192,765. (The subject is awaiting
    sentencing.)                                Our investigations of alleged employee
                                                misconduct included the following.
Additionally, as a result of our investiga-
tions, two former TVA employees were            ■   A fossil plant employee, using TVA
indicted by federal grand juries as follows.        telephones while on duty, placed
                                                    long-distance calls to sex-oriented
■   A former TVA cement mason, while                telephone answering services, which
    receiving partial disability benefits,          primarily were located in the Carib-
    owned and was actively involved in a            bean. TVA was charged over $16,000
    vinyl siding business. As a result of           for the calls. As a result of our
    our investigation, the individual was           investigation, the employee resigned
    indicted on three counts of making              and made full restitution to TVA. This
    false statements to obtain FECA                 case has been referred for prosecutive
    benefits and four counts of mail fraud          consideration.
    related to receipt of those benefits.       ■   The OIG received a report of a TVA
                                                    employee, who worked as an aircraft
                                                    mechanic when off duty, possessing




                                                       SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999               12
I N V E S T I G A T I O N S




                              TVA tools in his personal aircraft            During this reporting period, this
                              hangar. Subsequently, the individual          former TVA employee was ordered to
                              consented to a search conducted by            pay full restitution to TVA ($4,466),
                              OIG special agents. During that               was placed on 42 months’ probation,
                              search, the agents found TVA tools.           and was ordered to an inpatient drug-
                              The OIG seized the tools, and as a            treatment facility for an indefinite
                              result of our investigation, the              period of time.
                              individual’s TVA employment was
                                                                         BACKGROUND INVESTIGATIONS
                              terminated.
                         ■    In a prior period, we reported that a      At the request of TVA management, we
                              former employee charged over $4,000        continued to perform background
                              on a TVA credit card (1) to rent a car     investigations for sensitive positions and
                              for her personal use over a three-         for national security clearances. These
                              month period, (2) for personal food        investigations ensure individuals being
                              and entertainment, and (3) to pay a        hired for sensitive positions meet
                              bail bondsman. (The employee was           applicable requirements. By using the
                              arrested for selling cocaine to a county   OIG to perform these inquiries, rather
                              undercover officer; she conducted the      than the United States Office of Person-
                              transaction from a TVA vehicle.) The       nel Management, TVA saved over $2,000
                              individual subsequently pled guilty to     per investigation during this reporting
                              theft of government property.              period.




13   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                            I N V E S T I G A T I O N S




                          Administrative and Disciplinary Actions Since
                                        October 1, 1994*
                                           Total = 272

                                             Resignations/
                                             Terminations
                                                                            Suspensions/
                      Oral/Written                   18%                     Demotions/
                       Warnings                                    12%        Transfers
                                       14%


                                        26%                    30%


                    Reemployment                                        Counseling/
                       Flagged                                     Management Techniques



                            *Prosecutive referrals are shown at Appendix 3.




                      The breakdown of the 81 closed investigations involving
                                 TVA organizations are shown below.




              Customer Service &
                                         TVA Nuclear
                  Marketing                                              Transmission &
                                2.5%
                                                              2.5% Power Supply
                                               19%
River System Operations
     & Environment        12%                                              Fossil Power
                                                               16%


                                                             12%
                                       36%

                                                                         Other

                                      CAO/
                                 Business Services




                                                               SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999       14
I N V E S T I G A T I O N S




                                          All Hotline Contacts During This Reporting Period
                                                             Total = 3,206

                        Nature of Calls
                                                            OIG Business
                                                                Calls
                                                                  71.5%



                                                 2.5%                26%


                               Calls Raising Concerns of                    Information
                                Misconduct, Improper                         Requests
                                   Management, or
                                Personnel Procedures




                                           Referrals for OIG Investigations or Audit Action
                                                               Total = 65



                       Sources of Calls
                       Raising Concerns                           Former TVA/Contractor
                                                  General
                                                                       Employees
                                                   Public
                                                                           7.5%   1.5% Anonymous
                                                            29%


                                                                      62%



                                                                     TVA/Contractor
                                                                      Employees &
                                                                  Contractor Companies




15   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                       S P E C I A L             P R O J E C T S    ■




In addition to conducting audits and         We found TVA included the cost of
investigations, our office continues to      forwards driven by market pricing as a
perform special projects upon request by     component of the incremental cost for
our customers, primarily the Board of        ESP customers and gave ESP customers
Directors, TVA management, and               $9 million in rebates. TVA decided to give
Congress. During this reporting period,      the rebates because some of TVA’s gain
we conducted 11 special projects. The        on hourly off-system sales was attribut-
most significant projects are summarized     able to TVA purchasing power to meet an
below.                                       ESP load that did not materialize due to
                                             self-curtailments in the face of high
ECONOMY SURPLUS POWER (ESP)
                                             prices.
PROGRAM

ESP is an interruptible power program        In our opinion, TVA did not make windfall
that provides some of TVA’s direct-          profits at the expense of ESP customers.
served and distributor-served customers      TVA’s methodology for calculating ESP
the opportunity to purchase power with       was reasonable, most of the charges
charges varying from hour to hour based      represented cost recovery rather than
on TVA’s incremental cost of providing       profit, and TVA was not legally obligated
ESP.                                         to give the $9 million in rebates. As a
                                             business matter, we believe TVA would
We assessed whether TVA properly billed      have been justified in not giving any
ESP customers during the summer of           rebates. We did, however, identify several
1998 when a volatile power supply            different types of pricing errors and
situation existed. Various allegations had   discrepancies, including estimated
been made concerning events that             overbillings totaling about $1.6 million.
occurred related to TVA’s handling of        TVA management is taking action to
ESP customers, including charges that        alleviate future problems and refund the
TVA made windfall profits at the expense     overbillings.
of ESP customers.




                                                   SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999   16
S P E C I A L   P R O J E C T S




                        DRAFT RISK POLICY                               TVA-WIDE INTELLECTUAL CAPITAL
                                                                        ASSESSMENT
                        At the request of TVA’s Board, we drafted
                        a risk policy and standards for managing        At the request of TVA’s Chairman, we
                        significant, enterprise-wide risks. The         assessed whether TVA is effectively

                        draft policy (1) provided for establishing a    managing its intellectual capital. Intellec-
                        risk management organization, including         tual capital includes protected knowledge
                        a Chief Risk Officer position; (2) identified   that provides an economic and competi-

                        several areas of risk TVA should manage         tive advantage. We found that TVA has
                        and suggested exposure limits; and              several policies which address protection
                        (3) provided a mechanism for defining the       of sensitive information and proper use of

                        Board’s risk tolerance.                         computing resources. However, while
                                                                        these policies provide a foundation for
                        TVA’s Board subsequently issued a TVA           protecting intellectual capital, our review
                        Risk Policy authorizing the creation of a       disclosed opportunities for improvement.
                        Risk Management Committee, appoint-             Those potential improvements include
                        ment of a Chief Risk Officer, and adoption      issuance of a policy, which could include
                        of an enterprise-wide risk management           additional strategies for protection and
                        approach. The Board also forwarded our          utilization, increased employee training
                        suggested exposure limits to the Risk           and confidentiality agreements, and steps
                        Management Committee for                        to further grow and use intellectual
                        consideration.                                  capital. TVA management is considering
                                                                        implementation of the suggestions.




17   TVA/OFFICE OF THE INSPECTOR GENERAL
                       L E G I S L A T I O N      A N D       R E G U L A T I O N S             ■




During this reporting period, we reviewed
several bills and proposed regulations
relevant to the OIG community. These
included a bill which would require
agencies to conduct fraud recovery
audits, proposed amendments to the
Inspector General Act, and regulations
involving health care investigations. We
have worked with other Inspectors
General in submitting comments through
the President’s Council on Integrity and
Efficiency and the Executive Council on
Integrity and Efficiency.




                                               SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999   18
■   A P P E N DI C E S




           SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999
Appendix 1
Page 1 of 2

              OIG AUDIT REPORTS ISSUED DURING
              THE SIX-MONTH PERIOD ENDING SEPTEMBER 30, 1999

              The following table summarizes final audit reports issued by the OIG from April 1 through September 30, 1999.

                                                                                                             FUNDS
              DATE      REPORT                                          QUESTIONED      UNSUPPORTED       TO BE PUT TO
              ISSUED    NUMBER              REPORT TITLE                   COSTS          COSTS            BETTER USE

              4/7/99   1999-022C        Ingram Barge Company -              $60,000
                                        Contract

              4/14/99 1998-058P         Review of Prescription Drug         242,207
                                        Program Administered by Blue
                                        Cross Blue Shield of Alabama

              4/28/99 1998-050F-01 Government Performance and
                                   Review Act of 1993 - Review of
                                   TVA’s Dam Safety Performance
                                   Indicator

              4/28/99 1998-074C         ABB Environmental Systems -                                         $6,710,000
                                        Preaward

              4/28/99 1999-003C         Petroleum Source and Systems          6,572
                                        Group, Inc. - Contract

              4/28/99 1999-043F         Review of Environmental Research
                                        Center RCRA Cleanup

              4/28/99 1999-046F         Indus International, Inc. -                                            693,900
                                        Supply Chain Management
                                        Software - Preaward Audit

              4/30/99 1999-040C         Preaward Audit of Carl E. Smith                                        105,600
                                        for Johnsonville Pipeline Project

              5/6/99   1999-034F        Conventional Hydro Equivalent
                                        Availability Factor

              5/21/99 1999-049C         SAP Preaward Audit                                                     788,000

              5/25/99 1999-024F         Review of Access Controls Over
                                        Non-TVA Personnel and Organi-
                                        zations in Microsoft Exchange

              5/26/99 1999-014F         Windows NT Server Security
                                        Assessment

              6/1/99   1999-030P        Identification of Improper Vendor
                                        Payments

              6/8/99   1999-027C        Roberts & Schaefer                  158,236

              6/8/99   1999-032C        Pacific Engineering Corpora-          5,700
                                        tion - Subcontractor Under TVA’s
                                        Contract With Siemens Power

              6/9/99   1999-038F        Year 2000 Critical Items
                                        Closure Documentation

              6/9/99   1999-052F        Capital Investment Leveraged

    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                            Appendix 1
                                                                                                            Page 2 of 2

                                                                                              FUNDS
 DATE     REPORT                                           QUESTIONED      UNSUPPORTED     TO BE PUT TO
ISSUED    NUMBER              REPORT TITLE                    COSTS          COSTS          BETTER USE

6/24/99 1999-051C         Parsons Energy & Chemicals                                           $566,000
                          Group, Inc. - Preaward Audit

7/6/99   1999-042C        Tennessee Mining, Inc. - Contract $(8,500)

7/14/99 1999-048F         Review of Security Over
                          Sensitive Information on TVA’s
                          Intranet and Internet Sites

7/15/99 1999-035C         Chem Nuclear Systems LLC              21,887

7/19/99 1999-060F         Flood Storage Availability
                          Indicator

7/21/99 1998-033P         Review of Supplemental
                          Executive Retirement Plan

7/22/99 1999-054P         Review for Duplicate Payments
                          On J Contracts

8/20/99 1999-036C         Vanguard Research, Inc.                23,737       $23,737           208,489

8/25/99 1999-044C         McDaniel Fire Systems                                                 662,000

8/30/99 1999-050C         Gilbert/Commonwealth -                22,884
                          Contract

9/1/99   1999-066F        Year 2000 Critical Items
                          Closure Documentation for
                          Items Closed After April 1, 1999

9/3/99   1999-067F        Days Navigable Waterway Is
                          Available From Knoxville to
                          Paducah

9/7/99   1999-064C        ABB Fixed Price Review -                                              103,010
                          Shawnee Unit 10

9/16/99 1999-070C         Norfolk Southern - Contract
                          97P02-115608

9/17/99 1997-001S         Total Quality Applications, Inc. - 1,103,308         96,372
                          Contract

9/17/99 1999-047C         Sargent & Lundy - Cost Review
                          Contract

9/20/99 1998-056C         Williams Power Corporation -          42,068         10,474
                          Contract

9/21/99 1999-059F         Capital Project Economic Results

9/30/99 1999-073C         Preaward Audit of Contract                                              24,000
                          Extension for NPS Energy
                          Services Contract

TOTAL        36                                              $1,678,099*     $130,583        $9,860,999**
 * Of this figure, $632,990 is not recoverable.
* * This figure includes $788,000 identified in preaward audits of proposals for contracts that were not
    subsequently awarded.
                                                                SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999
Appendix 2
Page 1 of 2


          OIG’S REPORT ON MANAGEMENT DECISIONS FOR THE
          SIX-MONTH PERIOD ENDING SEPTEMBER 30, 1999

          The following Tables I and II summarize management decisions made by TVA management on OIG
          recommendations contained in final audit reports. The tables reflect amounts which were questioned and
          recommended to be put to better use and track the disposition of these amounts through management decision.

                                                        TABLE I
                                       TOTAL QUESTIONED AND UNSUPPORTED COSTS

                                                                 NUMBER             QUESTIONED         UNSUPPORTED
               AUDIT REPORTS                                    OF REPORTS            COSTS               COSTS


          A.   For which no management
               decision has been made by
               the commencement of the period                         1                $130,764                     0

          B.   Which were issued during
               the reporting period                                  11               1,678,099            $130,583

               Subtotal (A + B)                                      12              $1,808,863            $130,583

          C.   For which a management
               decision was made during
               the reporting period                                  11*                673,961               34,211

               1.   Dollar value of
                    disallowed costs                                 11                 672,677               34,211

               2.   Dollar value of
                    costs not disallowed                              1                    1,284                    0

          D.   For which no management
               decision has been made by
               the end of the reporting
               period                                                 2**             1,134,902               96,372

          E.   For which no management
               decision was made within
               six months of issuance                                 0                        0                    0

          * The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
             disallowed and not disallowed by management.
          ** The total number of reports differs from the differences of (A+B) and C when the same reports contain both
             recommendations with and without management decisions.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                 Appendix 2
                                                                                                  Page 2 of 2


                                            TABLE II
                                 FUNDS TO BE PUT TO BETTER USE

                                                NUMBER                       FUNDS TO BE PUT
     AUDIT REPORTS                            OF REPORTS                      TO BETTER USE


A.   For which no management
     decision has been made by
     the commencement of the period                0                                    0

B.   Which were issued during
     the reporting period                          9                            $9,860,999

     Subtotal (A + B)                              9                            $9,860,999

C.   For which a management
     decision was made during
     the reporting period                          6                             9,071,989

     1.   Dollar value of
          disallowed costs                         3                            7, 612,389

     2.   Dollar value of
          costs not disallowed                     3                             1,459,600

D.   For which no management
     decision has been made by
     the end of the reporting
     period                                        3                              789,010

E.   For which no management
     decision was made within
     six months of issuance                        0                                    0




                                                       SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999
Appendix 3
Page 1 of 1


               INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS



               INVESTIGATIVE REFERRALS                      SUBJECTS   RESULTS THIS PERIOD


               Subjects referred to U.S. Attorneys             8            7   Indicted
                                                                            5   Convicted
                                                                            7   Referrals Declined

               Subjects referred to other agencies             4       OWCP reduced benefits of one
               for investigative or administrative action              individual and terminated benefits for
                                                                       two individuals. Additionally, OWCP
                                TOTAL                          12      declared $85,532 forfeit on another
                                                                       individual. These actions resulted
                                                                       in combined long-term savings and
                                                                       restitution of over $1.5 million.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                          Appendix 4
                                                                                                           Page 1 of 1


AUDIT REPORTS WITH CORRECTIVE ACTIONS PENDING

Final corrective actions on recommendations in four contract compliance audits from prior reports have
not yet been fully implemented; however, all are being implemented in accordance with currently
established milestones.

Report 1996-037C-01 issued August 11, 1998

The report contained one recommendation regarding the contractor’s ability to produce adequate
documentation for billed costs. TVA is assessing what action is needed.

Report 1996-037C-02 issued September 3, 1998

The report contained two recommendations—one regarding overpayments and one regarding the
contractor providing supporting documentation for billed costs. TVA is pursuing recovery of
overpayments and resolution of unsupported costs.

Report 1997-023F issued May 19, 1998

This report contained 13 recommendations regarding a contract between TVA and a state development
agency. Those recommendations included:

(1)   Repayment to certain funds by the agency of ineligible and unsupported charges.
(2)   Adjustment of charges between funds.
(3)   Improvement in the approval process for fund withdrawals.
(4)   Keeping trust agreements current with the TVA contract.
(5)   Improvement of project control and accountability.

TVA has written a new contract which implements the audit recommendations. Execution of the
contract is expected by December 31, 1999.

Report 1998-051C issued March 18, 1999
The report contained three recommendations, all regarding overbillings under the contract. TVA has
resolved two of the recommendations and is negotiating recovery of overbillings noted in the third
recommendation.




                                                                SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999
Appendix 5
Page 1 of 1


               OIG REPORTING REQUIREMENTS

               Information required by the Inspector General Act of 1978, as amended, is included in this semiannual report as
               indicated below.

               Section 4(a)(2)     Review of Legislation and Regulations                Page 18

               Section 5(a)(1)     Significant Problems, Abuses, and                    Pages 5-17
                                   Deficiencies

               Section 5(a)(2)     Recommendations With Respect to                      Pages 5-17
                                   Significant Problems, Abuses, and
                                   Deficiencies

               Section 5(a)(3)     Recommendations Described in Previous                Appendix 4
                                   Semiannual Reports on Which Corrective
                                   Action Has Not Been Completed

               Section 5(a)(4)     Matters Referred to Prosecutive                      Appendix 3
                                   Authorities and the Prosecutions
                                   and Convictions That Have Resulted

               Sections 5(a)(5)    Summary of Instances Where Information               None
               and 6(b)(2)         Was Refused

               Section 5(a)(6)     Listing of Audit Reports                             Appendix 1

               Section 5(a)(7)      Summary of Particularly Significant Reports         Pages 8-17

               Section 5(a)(8)     Status of Management Decisions for                   Appendix 2
                                   Audit Reports Containing Questioned Costs

               Section 5(a)(9)     Status of Management Decisions for                   Appendix 2
                                   Audit Reports Containing Recommendations
                                   That Funds Be Put to Better Use

               Section 5(a)(10)    Summary of Unresolved Audit Reports                  None
                                   Issued Prior to the Beginning of the
                                   Reporting Period

               Section 5(a)(11)    Significant Revised Management Decisions             None

               Section 5(a)(12)    Significant Management Decisions With                None
                                   Which the Inspector General Disagreed




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                           HIGHLIGHTS

                                                           FOR SEMIANNUAL REPORTING PERIODS
                                               SEPT 30,       MAR 31,       SEPT 30,   MAR 31,     SEPT 30,
                                                 1999          1999           1998      1998         1997

ANNUAL BUDGET (In Millions of Dollars)             7.3               7.3       7.3        7.3          7.3
CURRENT STAFFING                                    78                81        83         81           83

AUDITS & SPECIAL PROJECTS
AUDITS IN PROGRESS
Carried Forward                                     34*            40          46          40          34
Started                                             41             42          34          50          46
Canceled                                             (3)         (11)         (13)        (14)        (10)
Completed                                          (36)          (38)         (27)        (30)        (30)
In Progress at End of Reporting Period              36             33           40          46         40

AUDIT RESULTS (Thousands)
Questioned Costs                               $1,678         $1,137        $1,769     $1,191        $552
Disallowed by TVA                                 673            946         1,656        636         530
Recovered by TVA                                  580            607           110      2,029         434

Funds to Be Put to Better Use                  $9,861         $1,402         $220      $2,359      $10,585
Agreed to by TVA                                7,612            980         5,169        696        5,707
Realized by TVA                                 1,834            389           136        696        1,078

SPECIAL PROJECT RESULTS
Completed                                           11               18        11             13       24
Cost Savings Identified/
  Realized (Thousands)                               0                0    $14,704       $843       $5,700

INVESTIGATIONS
INVESTIGATION CASELOAD
Opened                                             88             59           78          78          56
Closed                                             81             66           81          74          77
In Progress at End of Reporting Period            140            133          140         144         139

INVESTIGATIVE RESULTS (Thousands)
Recoveries                                     $1,772         $1,145         $284        $946        $481
Savings                                         1,422          1,912         3,388        645           9
Fines/Penalties                                     5             27 **

ADMINISTRATIVE AND
DISCIPLINARY ACTIONS
Recommended (# of Cases)                            21               19        20             24       12
Actions Taken (# of Subjects)                       17               11        22             12       14
Counseling/Management
  Techniques (# of Cases)                            3                4         8 **

PROSECUTIVE ACTIVITIES (# of Subjects)
Referred                                             8                4        12             11       15
Indicted                                             7                6         5              2        7
Convicted                                            5                9         9              6        3

* Adjusted from previous semiannual reports.
** Category added to Highlights during reporting period indicated.




                                                               SEMIANNUAL REPORT/APRIL 1 ~ SEPTEMBER 30, 1999
OFFICE OF THE INSPECTOR GENERAL OF THE TENNESSEE VALLEY AUTHORITY

                   400 WEST SUMMIT HILL DRIVE

                 KNOXVILLE, TENNESSEE 37902-1499
